<html>
<title> - FRANK R. WOLF INTERNATIONAL RELIGIOUS FREEDOM ACT OF 2015; STRATEGY TO OPPOSE PREDATORY ORGAN TRAFFICKING ACT; UNITED STATES-CARIBBEAN STRATEGIC ENGAGEMENT ACT OF 2016; REAFFIRMING THE TAIWAN RELATIONS ACT AND THE SIX ASSURANCES AS THE CORNERSTONE OF UNITED STATES-TAIWAN RELATIONS; AND TO PROVIDE FOR THE AUTHORITY FOR THE SUCCESSORS AND ASSIGNS OF THE STARR-CAMARGO BRIDGE COMPANY TO MAINTAIN AND OPERATE A TOLL BRIDGE ACROSS THE RIO GRANDE NEAR RIO GRANDE CITY, TEXAS, AND FOR OTHER PURPOSES</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]






FRANK R. WOLF INTERNATIONAL RELIGIOUS FREEDOM ACT OF 2015; STRATEGY TO 
    OPPOSE PREDATORY ORGAN TRAFFICKING ACT; UNITED STATES-CARIBBEAN 
STRATEGIC ENGAGEMENT ACT OF 2016; REAFFIRMING THE TAIWAN RELATIONS ACT 
   AND THE SIX ASSURANCES AS THE CORNERSTONE OF UNITED STATES-TAIWAN 
  RELATIONS; AND TO PROVIDE FOR THE AUTHORITY FOR THE SUCCESSORS AND 
 ASSIGNS OF THE STARR-CAMARGO BRIDGE COMPANY TO MAINTAIN AND OPERATE A 
TOLL BRIDGE ACROSS THE RIO GRANDE NEAR RIO GRANDE CITY, TEXAS, AND FOR 
                             OTHER PURPOSES

=======================================================================

                                 MARKUP

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                                   ON

                    H.R. 1150, H.R. 3694, H.R. 4939,

                      H. Con. Res. 88 and S. 2143

                               __________

                             APRIL 20, 2016

                               __________

                           Serial No. 114-158

                               __________

        Printed for the use of the Committee on Foreign Affairs


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                                 ______
                                 
                        U.S. GOVERNMENT PUBLISHING OFFICE 

99-851PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                             
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
DANIEL DONOVAN, New York

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               MARKUP ON

H.R. 1150, To amend the International Religious Freedom Act of 
  1998 to improve the ability of the United States to advance 
  religious freedom globally through enhanced diplomacy, 
  training, counterterrorism, and foreign assistance efforts, and 
  through stronger and more flexible political responses to 
  religious freedom violations and violent extremism worldwide, 
  and for other purposes.........................................     2
  Amendment in the nature of a substitute to H.R. 1150 offered by 
    the Honorable Christopher H. Smith, a Representative in 
    Congress from the State of New Jersey........................    45
H.R. 3694, To combat trafficking in human organs, and for other 
  purposes.......................................................    81
  Amendment in the nature of a substitute to H.R. 3694 offered by 
    the Honorable David A. Trott, a Representative in Congress 
    from the State of Michigan...................................   100
      Amendment to the amendment in the nature of a substitute to 
        H.R. 3694 offered by the Honorable William Keating, a 
        Representative in Congress from the Commonwealth of 
        Massachusetts............................................   109
H.R. 4939, To increase engagement with the governments of the 
  Caribbean region, the Caribbean diaspora community in the 
  United States, and the private sector and civil society in both 
  the United States and the Caribbean, and for other purposes....   110
H. Con. Res. 88, Reaffirming the Taiwan Relations Act and the Six 
  Assurances as the cornerstone of United States-Taiwan relations   118
  Amendment in the nature of a substitute to H. Con. Res. 88 
    offered by the Honorable Steve Chabot, a Representative in 
    Congress from the State of Ohio..............................   121
      Amendment to the amendment in the nature of a substitute to 
        H. Con. Res. 88 offered by the Honorable Gerald E. 
        Connolly, a Representative in Congress from the 
        Commonwealth of Virginia.................................   126
S. 2143, A bill to provide for the authority for the successors 
  and assigns of the Starr-Camargo Bridge Company to maintain and 
  operate a toll bridge across the Rio Grande near Rio Grande 
  City, Texas, and for other purposes............................   127

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE RECORD
                                APPENDIX

Markup notice....................................................   146
Markup minutes...................................................   147
Markup summary...................................................   149
The Honorable Christopher H. Smith, a Representative in Congress 
  from the State of New Jersey: Prepared statement...............   150
The Honorable Joe Wilson, a Representative in Congress from the 
  State of South Carolina: Prepared statement....................   151
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Material submitted for the 
  record.........................................................   152
 
FRANK R. WOLF INTERNATIONAL RELIGIOUS FREEDOM ACT OF 2015; STRATEGY TO 
    OPPOSE PREDATORY ORGAN TRAFFICKING ACT; UNITED STATES-CARIBBEAN 
STRATEGIC ENGAGEMENT ACT OF 2016; REAFFIRMING THE TAIWAN RELATIONS ACT 
   AND THE SIX ASSURANCES AS THE CORNERSTONE OF UNITED STATES-TAIWAN 
  RELATIONS; AND TO PROVIDE FOR THE AUTHORITY FOR THE SUCCESSORS AND 
 ASSIGNS OF THE STARR-CAMARGO BRIDGE COMPANY TO MAINTAIN AND OPERATE A 
TOLL BRIDGE ACROSS THE RIO GRANDE NEAR RIO GRANDE CITY, TEXAS, AND FOR 
                             OTHER PURPOSES

                              ----------                              


                       WEDNESDAY, APRIL 20, 2016

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 10:09 a.m., in 
room 2172, Rayburn House Office Building, Hon. Ed Royce 
(chairman of the committee) presiding.
    Chairman Royce. The committee will come to order.
    Pursuant to notice, we meet today to mark up several 
bipartisan measures. And without objection, all members may 
have 5 days to submit statements or any extraneous material for 
the record.
    Consideration of S. 284 is being postponed, and as members 
were notified yesterday, we intend to consider the other five 
measures en bloc. And so without objection, the following items 
previously provided to members will be considered en bloc and 
are considered as read: H.R. 1150, the Frank Wolf International 
Religious Freedom Act; Smith amendment 76 in the nature of a 
substitute to this measure; also, H.R. 3694, the Strategy to 
Oppose Predatory Organ Trafficking Act, along with Trott 
amendment No. 8 in the nature of a substitute to this measure, 
and the Keating amendment 63 to the Trott amendment; then we 
have H.R. 4939, the U.S.-Caribbean Strategic Engagement Act of 
2016; and we have House Concurrent Resolution 88, Reaffirming 
the Taiwan Relations Act and the Six Assurances as the 
Cornerstone of U.S.-Taiwan Relations, along with Chabot 
amendment 36 in the nature of a substitute and the Connolly 
amendment 72 to the Chabot amendment; and we have S. 2143, 
Starr-Camargo Bridge Act, as passed by the Senate.
    [The information referred to follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    

    Chairman Royce. And after recognizing myself and the 
ranking member, I will be pleased to recognize any member 
seeking recognition to speak once on any of these measures.
    I want to thank our Subcommittee Chairman Smith and his 
more than 100 bipartisan cosponsors on their work on H.R. 1150, 
the Frank Wolf International Religious Freedom Act. Inspired by 
years of oversight and multiple hearings, this bill updates the 
International Religious Freedom Act of 1998 to improve the 
coordination and effectiveness of U.S. efforts to promote 
religious liberty worldwide.
    Eighteen years after that law was passed, freedom of 
religion remains under threat not only by authoritarian regimes 
obsessed with control, but also by new nonstate actors. ISIS, 
Boko Haram, al-Shabaab have turned religious intolerance into a 
murderous force of global instability. The right to believe and 
practice according to the dictates of conscience is a direct 
challenge to their very ideologies. And thus, it is not just a 
human rights issue. It has become a global security issue.
    By improving coordination, confronting nonstate actors, and 
bettering reporting and training, this bill, 1150, is a helpful 
refinement of our statutory commitment to combat religious 
persecution around the world.
    Moving on to House Concurrent Resolution 88, a resolution 
reaffirming the Taiwan Relations Act and the Six Assurances as 
the cornerstone of U.S.-Taiwan relations. Congress has long 
championed a strong relationship with Taiwan through landmark 
measures like the Taiwan Relations Act and through pressing 
successive administrations to fulfill their obligation to sell 
defensive arms to Taiwan.
    Today, our committee is once again reaffirming the U.S. 
commitment to Taiwan by upholding the Six Assurances as one of 
the cornerstones of U.S.-Taiwan policy, right alongside the 
Taiwan Relations Act. And I want to thank Representative Steve 
Chabot for offering this important measure and Representative 
Connolly for his amendment stressing the role Congress has 
played in fostering this critical relationship.
    I also want to thank and recognize Representatives Trott 
and Deutch for introducing H.R. 3694, the STOP Organ 
Trafficking Act.
    Organ trafficking has been reported in over 20 countries in 
all regions of the world. Criminal organizations and terrorist 
groups are increasingly engaging in this black market industry. 
It is valued today as an industry at over $1 billion. ISIS 
recently issued a ``fatwa'' sanctioning forced organ harvesting 
from its captives and from apostates, that would be Yazidis or 
Christians or Kurds or others who they believe are apostates to 
their ideology. And traffickers smuggling refugees into Europe 
have reportedly coerced organ donations as the payment now for 
travel.
    The U.S. has led the fight against human trafficking with 
help from this committee and its members. This bill continues 
that leadership by closing the gap in U.S. law that currently 
fails to recognize organ trafficking as a form of human 
trafficking. The legislation also supports voluntary organ 
donation systems, authorizes the President to revoke passports 
or deny visas for anyone convicted of organ trafficking crimes, 
and requires annual reporting to Congress on actions by the 
U.S. and other countries to combat organ trafficking.
    And I want to address H.R. 4939, the United States-
Caribbean Strategic Engagement Act of 2016, and thank Ranking 
Member Engel and Chairman Emeritus Ros-Lehtinen for their 
leadership in advancing U.S. interests in the Western 
Hemisphere.
    For over a decade, countries in the Caribbean have been 
largely beholden to Venezuelan oil subsidies in exchange for 
their support of the authoritarian Venezuelan Government of 
Hugo Chavez and now Nicolas Maduro. The United States has not 
developed a comprehensive strategy of how best to engage this 
region to enhance diplomatic relations, to help the region 
improve energy security, to reduce violence and curb drug 
trafficking, and advance cooperation on democracy and human 
rights.
    So this bill will require the State Department and USAID to 
develop a comprehensive and clear strategy on best engaging the 
Caribbean region. And the bill also requires the Government 
Accountability Office to evaluate the Caribbean Basin Security 
Initiative so that we can be sure we are advancing our 
interests in the region using the best and most efficient 
approach.
    Lastly, we consider S. 2143, the Starr-Camargo Bridge Act. 
Two weeks ago, the Senate unanimously passed this measure, 
which was introduced by Senator Cornyn. And Representative 
Cuellar here, of Texas, on the House side, has introduced an 
identical version in this body.
    This bill, the Senate bill 2143, will grant the Starr-
Camargo Bridge Company the permanent authority to operate and 
maintain the international bridge that connects via the Rio 
Grande City, Texas, and Monterrey, Mexico. This will give 
Starr-Camargo the same authorities Congress has previously 
given to other privately owned international bridges.
    The bridge has seen continued growth in commercial traffic 
since 2009, and it plays an important role in facilitating 
trade and travel in the region. By granting this authority, we 
are incentivizing Starr-Camargo to continue maintaining and 
expanding the bridge's capacity to keep up with the growing 
trade and commerce along the Texas border with Mexico.
    And I want to thank both Representative Cuellar and 
Representative Castro for their leadership in bringing this 
measure forward for consideration here today.
    I now recognize the ranking member for his remarks.
    Mr. Engel. Mr. Chairman, thank you for convening this 
markup. We have a slate of good bipartisan measures that we are 
taking up today. And thank you especially for calling up the 
Caribbean Strategic Engagement Act, which I was proud to 
introduce recently with Representative Ros-Lehtinen.
    As this committee well knows, it is a big world with a lot 
of challenges. Some are getting more attention than others. So 
it is important to stay focused on our neighbors in the 
Caribbean. These countries are profoundly important to the 
United States. My own district in New York has a sizable 
diaspora population from Caribbean countries, and I hear from 
these proud and engaged communities very often.
    This bill makes it clear that U.S.-Caribbean relations are 
a major priority. It directs the State Department and USAID to 
devise a multiyear strategy for engaging with Caribbean 
governments. We want to put a particular focus on improving 
energy security, strengthening the rule of law, reducing drug 
trafficking, and enhancing economic cooperation.
    We want to ramp up diplomatic engagement, especially when 
it comes to key issues at the United Nations and the 
Organization of American States and with the five Caribbean 
countries where the United States still doesn't have Embassies, 
and, I might add, should have Embassies as soon as possible.
    We will end up with the best policy if we shape it in 
consultation with many Caribbean American citizens in the 
United States. It is a strength for us to have such a strong 
and vibrant diaspora community. So this bill also calls for 
revitalized outreach to this community, seeking greater input 
on ideas for economic development and citizen security.
    Mr. Chairman, again, thank you for moving this legislation 
so quickly. I ask that all members support it.
    Next, I will turn to Mr. Smith's International Religious 
Freedom Act. I want to thank him for all his hard work on this 
issue. Thank you, Mr. Smith.
    The freedoms of thought, conscience, and religion are 
enshrined in the Universal Declaration of Human Rights. Yet, 
around the world, religious communities are subjected to 
escalating violence and persecution. In the 21st century, it is 
unacceptable for anyone to suffer discrimination because of how 
they worship or, for that matter, if they choose not to worship 
at all.
    The United States has a responsibility to speak out when we 
see basic freedoms under threat, and this bill will help the 
administration promote religious freedom around the world. So I 
support this bill, and I also support continuing to fully fund 
the Human Rights and Democracy Fund for all human rights 
abuses.
    I will now turn to the bill offered by Mr. Trott and Mr. 
Deutch aimed at cracking down on predatory organ trafficking. 
This legislation would change our human trafficking law to 
include the trafficking of persons for the removal of their 
organs.
    We don't know much about this crime. Who are the victims? 
How do they get trapped by this illegal trade? What are 
governments doing to halt the practice, track down those 
responsible, and provide services to survivors? If this is a 
pervasive problem, then, yes, of course, we must act.
    This bill calls for a report on this crime so that we gain 
a fuller understanding of the problem. While I have questions 
about including these provisions as part of our global effort 
to confront modern slavery, I am glad that we are working on 
the issue.
    Moving to Mr. Chabot's measure, I am happy to support his 
resolution reaffirming the close ties between the United States 
and Taiwan. This is an exciting time for the Taiwanese people. 
Next month, a new President will be sworn in, the first woman 
to be elected President there. I could add, so that the 
Taiwanese are ahead of us by a few months. I had the pleasure 
of meeting with her several times before the election, and I am 
very hopeful for her success.
    As Taiwan's democracy prepares for a political transition, 
it is important that the United States signal our unwavering 
support for Taiwan, for Taiwan's defense, for its participation 
on the global stage, for its robust democracy. And so this 
resolution reaffirms our commitment to the Taiwan Relations Act 
and the Six Assurances.
    These are the measures that have underpinned our 
relationship with the Taiwanese people since we normalized 
relations with the People's Republic of China. Those ties 
remain deeply important to this day, and I am glad to support 
this resolution. The chairman and I have talked about this a 
great time, and we both believe it is important for the United 
States to stand squarely with our friend and ally Taiwan.
    Lastly, I am glad to support this bill from my good friend 
Representative Cuellar, which would allow the Starr-Camargo 
Bridge to continue as an important connection between the 
United States and Mexico. I have to say, at a time when we hear 
so much about building walls, it feels pretty good to talk 
about strengthening bridges.
    The Starr-Camargo Bridge connects Rio Grande, Texas, with 
Monterrey and Ciudad Camargo in Mexico. Under current law, the 
authority to operate this bridge will expire in 16 years. 
Though it seems like a long way off, that end date has already 
started to constrain investments in long-term improvements. 
This legislation would eliminate that expiration date, just as 
we have done for the Weslaco-Progreso International Bridge.
    This bill doesn't cost U.S. taxpayers a penny. And in the 
midst of a lot of ugly rhetoric, it sends a clear signal: 
Mexico is an extremely important partner to the United States 
and bridges, not barriers, will help that friendship to thrive.
    So I agree with the chairman. I urge support for this 
measure and all the things contained in this measure.
    And I thank you again, Mr. Chairman. I yield back.
    Chairman Royce. Thank you, Mr. Engel.
    Any other members seeking recognition?
    Mr. Smith.
    Mr. Smith. Mr. Chairman, thank you very much.
    First of all, let me thank you for scheduling all of these 
bills, including the International Religious Freedom Act, the 
Frank Wolf bill, which honors a tremendous advocate for 
religious freedom and the author of the landmark 1998 
International Religious Freedom Act.
    I want to thank Eliot Engel as well, the ranking member, 
for working so closely with us on this important legislation.
    And I would like to thank Anna Eshoo, who is the original 
Democratic cosponsor of the bill and a great supporter of 
religious freedom, especially in the Middle East. Her work has 
been greatly appreciated, and we have come up, I think, with a 
bill that will make a significant difference.
    The world is experiencing an unprecedented crisis of 
international religious freedom, a crisis that continues to 
create millions of victims, a crisis that undermines liberty, 
prosperity, and peace, a crisis that poses a direct challenge 
to the U.S. interests in the Middle East, North Korea, China, 
and in sub-Saharan Africa.
    The bill we passed almost 18 years ago needs to be updated 
to match the challenges of the 21st century. And, again, that 
is what we are doing with the legislation: Provide tools, 
training, and resources used by the administration to advance 
this universally recognized human right.
    Among its many provisions--and they are mutually 
reinforcing provisions--it clarifies that the Ambassador-at-
Large will report to the Secretary of State. Sometimes there 
has been a little glitch there over the years in terms of that 
information going right to the ears of the Secretary of State.
    It creates a special watch list, not unlike what we did 
with the Trafficking Victims Protection Act. When a country 
doesn't rise to the level of a Country of Particular Concern 
but is a bad actor, this gives the President a way to say we 
are watching. And the special watch list will provide that very 
useful utility.
    Curricula for training Foreign Service Officers so that 
they really do understand before deployment, especially 
overseas, exactly what the lay of the land is and what 
international religious freedom is all about.
    We also include, as you pointed out, Mr. Chairman, a new 
designation of nonstate actors. We call them entities of 
particular concern. They are not countries. Boko Haram, ISIS, 
al-Shabaab, and others need to be focused upon for their 
nefarious deeds and individuals held to account to the greatest 
extent practicable for their horrible deeds.
    CPC designations need to be made annually. There were a 
number of years where they were not made. And this will at 
least clarify that those Country of Particular Concern 
designations do need to be made every single year.
    And then there are a number of other provisions that will, 
I think, significantly strengthen.
    And I would ask unanimous consent that my full statement be 
made a part of the record, Mr. Chairman.
    Chairman Royce. Without objection.
    Mr. Smith. And I would just finally say how grateful I 
think we all are that Mr. Trott and Mr. Deutch have really 
stepped up to the plate with their H.R. 3694, the Strategy to 
Oppose Organ Trafficking Act.
    Twenty years-plus ago, I held a hearing on organ 
trafficking, and we actually had a man who was a part of that 
testify about this horrific practice of killing people in order 
to steal their organs and to make money for the regime in China 
and elsewhere. That has gotten worse and is particularly 
focused on the Falun Gong who have suffered disproportionately 
from this very shocking abuse of human rights.
    So, again, I want to thank them for their wonderful bill, 
and it will make a difference.
    I yield back.
    Chairman Royce. Mr. Sherman.
    Mr. Sherman. I yield a minute-and-a-half to the gentleman 
from Virginia.
    Mr. Connolly. I thank my friend from California for his 
graciousness. I have to run to another hearing.
    Mr. Chairman, I want to associate myself with the remarks 
both of yourself and of the ranking member with respect to the 
Taiwan resolution we have here. And I want to ask unanimous 
consent to assert in the record an interesting document, pages 
44 through 48 of the Department of State Bulletin from March 
1979, which was their draft for what we ought to do with 
respect to Taiwan.
    And you can see that it does not address security at all. 
And it took Congress to take the initiative in rewriting this 
into the vibrant, dynamic Taiwan Relations Act that now 
undergirds our relationship with that island and that was the 
basis for the defensive military assistance we currently 
provide and have provided to Taiwan. It is a great example of 
actually congressional foreign policymaking that was 
desperately needed. A vacuum had been created, and we rose to 
the occasion.
    So I would ask unanimous consent to enter this into the 
record. It is a rather rare document. And I think it 
underscores----
    Chairman Royce. It is often referenced, this piece of 
history, in textbooks about Congress' role. And without 
objection, we will put it in the record.
    Mr. Connolly. I thank the chair. And I thank Mr. Sherman so 
much for his courtesy.
    Mr. Sherman. Thank you.
    I want to thank the chairman for holding these hearings. I 
am a cosponsor of H.R. 1150, the Frank Wolf International 
Religious Freedom Act; H.R. 4939, the United States-Caribbean 
Strategic Engagement Act; and the H. Con. Res. 88, the Taiwan 
Relations and Six Assurances resolution.
    I want to focus on Taiwan, as the gentleman from Virginia 
did as well. I am the lead Democratic cosponsor of this 
resolution, which affirms the Taiwan Relations Act and the Six 
Assurances as the cornerstone of United States-Taiwan 
relations.
    The Taiwan Relations Act is critical to the U.S.-Taiwan 
relationship. On January 1, 1979, when the Carter 
administration established diplomatic relations with the 
People's Republic of China, it ended formal ties with the 
Republic of China on Taiwan. However, the United States 
Congress acted swiftly to reaffirm the United States-Taiwan 
relationship with the enactment of the Taiwan Relations Act 
just 100 days later, ensuring that the United States would 
maintain a robust and enduring relationship with Taiwan.
    Since 1979, we have seen Taiwan develop into a strong 
democracy. We are in the process of seeing a peaceful and 
orderly transition of power from one political party to 
another. Taiwan is an important ally, and we need to do 
everything possible to make sure that it remains so.
    The Six Assurances to Taiwan have been a verbal U.S. pledge 
since 1982. This bill is important because it solidifies this 
commitment in legislation for the first time. Three of those 
Six Assurances are a commitment to continued arm sales to 
Taiwan, a commitment to not consult with Beijing on U.S.-Taiwan 
relations, and a commitment to stand by the Taiwan Relations 
Act, which was passed 3 years before the Six Assurances in 1979 
and which Mr. Connolly has already referenced.
    This resolution not only affirms that the Taiwan Relations 
Act and the Six Assurances are the cornerstone of U.S. 
relations with Taiwan, but it also urges the President and the 
State Department to affirm the Six Assurances publicly, 
proactively, and consistently as a cornerstone of United 
States-Taiwan relations.
    Mr. Chairman, I think Congress not only has been doing good 
work on the U.S.-Taiwan relationship for a long time, the 
Taiwan Relations Act, which was mentioned by Mr. Connolly, but 
also just recently our committee. Back in December we passed a 
resolution saying it was time to transfer the frigates to 
Taiwan. And 5 days later, they finally transferred the friggin' 
frigates.
    And it was good to join with you in that bill and to join 
with Mr. Salmon in the bill on Interpol, which was signed into 
law recently, and which will be causing us to develop a 
strategy to get Taiwan into Interpol, because after all, who is 
in favor of the international criminals that Interpol is trying 
to incarcerate.
    So, Mr. Chairman, I yield back.
    Chairman Royce. I thank the gentleman for yielding.
    I did have the pleasure of going aboard one of those 
frigates as we were trying to expedite the process with my 
legislation. But it is now done, and this legislation will now, 
after our vote, go to the floor.
    But in the meantime, I think Ileana Ros-Lehtinen was 
seeking time.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman, thank 
you, Ranking Member Engel, for convening this markup and 
bringing up all of these important measures in front of our 
committee in a bipartisan manner as always.
    I am going to briefly speak about two of the bills. I am 
proud to be the Republican lead, alongside my good friend and 
the ranking member, Eliot Engel, on the U.S.-Caribbean 
Strategic Engagement Act, a bill which would help push the 
State Department to prioritize U.S.-Caribbean relationships. 
That is so important.
    When not sharing the national stage with Hillary Clinton, 
Ranking Member Engel has long made the Caribbean one of his top 
priorities, and I want to thank him for his tremendous 
leadership on this issue.
    This bill would require the State Department to develop a 
strategy to partner with our Caribbean neighbors on everything 
from counternarcotics to energy security and to broaden our 
outreach to the Caribbean diaspora community in our Nation. 
South Florida makes up a large segment of this diaspora, and I 
understand well the importance of both the Caribbean and the 
need for increased engagement by the United States with those 
countries.
    Too often Caribbean nations are either taken for granted or 
are neglected by the State Department, leaving them with little 
to no presence of the U.S. or diplomatic engagement, and this 
course must and should be corrected. Deepening our strategic 
relationship with the Caribbean represents an extraordinary 
opportunity to expand our economic ties, cooperate on security 
issues, and advance our values and interests at places like the 
OAS and the U.N.
    So I fully support this measure. I thank Mr. Engel for 
sponsoring it. I urge my colleagues to give this bill their 
full support as well.
    And I would also like to offer my support for my dear 
friend Steve Chabot's resolution, which would reaffirm the 
importance of the Taiwan Relations Act and President Reagan's 
Six Assurances to the U.S.-Taiwan relationship. I am proud to 
be a cosponsor because I continue to believe that the Taiwan 
Relations Act and the Six Assurances should be unequivocal 
guidelines to which the United States must remain fully and 
firmly committed.
    Taiwan is and remains an important ally, a friend, a 
strategic, economic, and security partner of the United States, 
and there should be no doubt about this commitment to her, and 
as the Taiwanese people continue to prove, their vibrant 
democracy, Taiwan must have the capability to defend herself 
from aggression from China, whether political, economic, or 
military in nature.
    And it is critical that both China and Taiwan know that our 
commitment to Taiwan, to the Taiwan Relations Act, and to the 
Six Assurances, has not wavered one bit. Taiwan must be allowed 
to peacefully determine its own future, and I urge my 
colleagues to reaffirm this principle by passing this important 
Steve Chabot resolution here today.
    I thank the chairman.
    Chairman Royce. Thank you, Ileana.
    Mr. Ted Deutch from Florida.
    Mr. Deutch. Thank you, Mr. Chairman. And I appreciate the 
opportunity to have all these bills before us today.
    I would like to speak about the Strategy to Oppose 
Predatory Organ Trafficking Act. I want to thank Mr. Trott for 
his leadership on this issue.
    And thanks to Mr. Smith as well for your longstanding 
attention to the issue of organ trafficking.
    This bill, H.R. 3694, addresses an important but often 
underacknowledged global trafficking issue. In places all over 
the world, amid the millions of people enslaved into the 
various forms of human trafficking, are individuals trafficked 
specifically for the illicit purpose of removing their organs. 
This black market of organ trafficking finds at-risk people and 
entices them with money in exchange for their organs. Often 
these victims are poor and vulnerable to offers of money that 
they can then use to pay for food and basic necessities for 
their families.
    A 2013 United Nations report found that the economic and 
social divisions within and among countries is similarly 
reflected in the most common victims of illegal organ 
trafficking, specifically in poor and unemployed populations. 
The sad reality is the people most in need of help are the 
easiest to fall pray by extortion by traffickers.
    But this problem is global, and while victims may come from 
lower-income countries, the demand that keeps the illegal organ 
trafficking market so profitable comes from higher-income 
countries, including the United States. Many of our allies 
already list trafficking of persons for the removal of their 
organs as a form of human trafficking, and a number of 
international protocols and agreements urge countries to do 
more to restrict the market. These illicit activities are 
simply unacceptable and are against our American values.
    So I am thrilled that this bill will allow our government 
to do its part to work against this illicit black market, 
including empowering the Secretary of State to deny or revoke 
passports to anyone convicted of organ trafficking offense and 
asking the State Department to keep Congress informed of what 
our government and other governments are doing to address this 
problem.
    We have received support from a number of groups advocating 
for stronger laws against illicit trafficking of organs and 
better protection of victims. And I would like to specifically 
thank the Coalition for Organ Failure Solutions for their 
support.
    I am proud of the attention that this committee has given 
to human trafficking, and I ask that we continue our strong 
record by acknowledging that trafficking of persons for the 
removal of their organs is a violation of our American values.
    And I yield back the balance of my time. Thank you, Mr. 
Chairman.
    Chairman Royce. Thank you, Mr. Deutch.
    Mr. Rohrabacher of California.
    Mr. Rohrabacher. I will make this short. I just would like 
to thank you, Mr. Chairman, and thank Ranking Member Engel. One 
needs only to take a look at the issues that are being 
discussed today to note that you are reaffirming this 
committee's traditional positioning and support for human 
rights throughout the world.
    You obviously are taking up where Henry Hyde and others who 
before you sat in that chair, you are building upon what they 
created as a foundation for freedom and justice and liberty and 
human rights as being values that this committee will uphold. 
And I appreciate every one of these bills reflects that. So 
thank you, Ranking Member, and thank you, Mr. Chairman.
    Chairman Royce. Thank you, Mr. Rohrabacher.
    Mr. Keating from Massachusetts.
    Mr. Keating. Thank you, Mr. Chairman.
    I want to thank Mr. Trott and Mr. Deutch for their 
leadership in introducing the Strategy to Oppose Predatory 
Organ Trafficking Act. Too often vulnerable individuals are 
coerced or forced into supporting this illicit trade. And just 
in a world where you think things can't get much worse, you see 
this kind of coerced or forced activity really hurt victims who 
are typically poor or unemployed. Some of them indeed were 
known to include children.
    Countries must have an effective law on the books if we are 
to protect against future victims of this trade, and it is 
crucial that countries then enforce these laws so that 
perpetrators do not continue to target vulnerable individuals 
with impunity. My amendment adds to the bill a report on host 
country enforcement of these laws against trafficking of 
persons for the removal of organs.
    Finally, I would like to thank all the sponsors of the four 
additional bills being considered this morning, all of which I 
support. These pieces of legislation will have important 
consequences in advancing human rights, security policy, and 
U.S. engagement abroad.
    And I do want to say, in a Congress that is often stymied 
on its ability to act, this committee continues to move forward 
and stands out in that regard for working cooperatively and in 
a bipartisan fashion to really address very important issues. I 
want to thank Chairman Royce and Ranking Member Engel for that 
as well.
    And I yield back.
    Chairman Royce. I want to just respond if I could, Mr. 
Keating. I thank you for this amendment and support its 
inclusion in the bill.
    Having adequate laws on the books without strong 
enforcement, frankly, is meaningless, so amending the annual 
report to highlight a country's implementation and enforcement 
efforts will send this clear message, and it is going to 
enhance our efforts to stop organ trafficking. So we thank you 
for your improvement to the legislation.
    Mr. Salmon of Arizona.
    Mr. Salmon. Thank you, Mr. Chairman.
    I am very pleased to support Mr. Chabot's legislation, H. 
Con. Res. 88, Reaffirming the Taiwan Relations Act and the Six 
Assurances as the cornerstone of United States-Taiwan 
relations.
    Mr. Chairman, I was a missionary in 1979 when Jimmy Carter 
was President and severed diplomatic ties with Taiwan. It was a 
very dark time for me personally. It was something I was very, 
very frustrated about at the time. But then Congress kind of 
came to the rescue. I think it was the leadership of the 
Senator from my State, Barry Goldwater, that put forth the 
Taiwan Relations Act.
    And I think us reaffirming our commitment to that--and Mr. 
Chabot, you are just to be congratulated--this is so very, very 
important, not just to our relationship with Taiwan, but I 
think to the world at large. Taiwan's vibrant democracy is so 
incredibly important to the region as a guidepost for other 
nations to follow, and many are following suit with Taiwan's 
leadership in the world.
    I was fortunate to go to Lee Teng-hui's swearing-in, 
President Chen Shui-bian's, and I will be going in just a 
couple weeks to the swearing-in of Tsai Ing-wen, the newly 
elected President of Taiwan. And I am just really excited that 
we are doing the right thing today.
    America's commitment to Taiwan was so important that Ronald 
Reagan led the way toward this country's policies and 
commitment to Taiwan that have been in place for several 
decades now. I strongly support this resolution and urge my 
colleagues to support its passage.
    I would also like to speak in support of Mr. Trott's 
legislation, the Stop Organ Trafficking Act. The illegal 
trafficking of human organs is despicable. The World Health 
Organization estimates that 10 percent of all transplanted 
organs worldwide are illegally obtained, coerced from 
vulnerable populations and prisoners, and it is long past time 
for the U.S. to make a policy to combat this brutal activity 
that seeks only to terrorize defenseless individuals. 
Terrorists and doctrinal regimes use this practice to fund 
their activities and to brutally punish those they seek to 
control, and this bill will put a stop to it.
    And finally, I would like to speak in support of Chairman 
Smith's legislation, H.R. 1150, the Frank R. Wolf International 
Religious Freedom Act of 2015. I am a cosponsor of this 
legislation and I am proud to support international religious 
freedom.
    As a man of faith, one of the greatest freedoms we enjoy in 
this, the greatest Nation on the Earth, is the ability to 
worship as we please. Our Founding Fathers fought for this 
principle, and Congress has a responsibility to continue that 
fight for others. And I really appreciate Representative Smith 
constantly being a reminder of this important truth and this 
important responsibility that we have in Congress and 
constantly standing up for the fight for human rights.
    God is going to have a special place for you, for all the 
great work you have done, my friend.
    So thank you, and I will yield back my time.
    Chairman Royce. We will go to Mr. Cicilline from Rhode 
Island.
    Mr. Cicilline. Thank you, Mr. Chairman. I want to thank you 
and Ranking Member Engel for holding this markup and for once 
again conducting the business of this committee in a bipartisan 
way.
    I want to thank the sponsors of the bills that we are 
considering this morning, and I support all of the bills before 
us. But I want to spend a few moments to speak about H.R. 1150, 
the Frank Wolf International Religious Freedom Act.
    This legislation has special significance to people in my 
home State, the State of Rhode Island founded by Roger 
Williams, because of his desire for religious liberty that he 
didn't think he could quite enjoy in the neighboring 
Commonwealth of Massachusetts. I waited until Mr. Keating left 
to say that.
    But I strongly support the goals of this legislation to 
protect and promote religious freedom around the world. Our 
former colleague, Frank Wolf, dedicated his career to fighting 
for basic human rights, and it is fitting that this legislation 
honors the extraordinary work that he has done in this area.
    Religious minorities around the world face discrimination, 
harassment, persecution, and worse. Today, the Islamic State is 
engaged in systemic persecution against religious minorities as 
part of their bloody campaign in the Middle East that targets 
any group that doesn't fit within its radical ideology. Just 
last month, the House and the Obama administration found that 
ISIS has engaged in acts of crimes against humanity, war 
crimes, and genocide against religious and ethnic minorities in 
the region.
    I do want to use this occasion to remind my colleagues that 
there are widespread abuses taking place in the world right 
now, in Syria, Sudan, Nigeria, DRC, and many other countries. 
Governments, terrorist groups, and other actors are engaged in 
horrific campaigns that encompass women, children, minorities, 
and other vulnerable populations. And it is incredibly 
important that we are careful not to seem to be elevating 
abuses against one particular group above others.
    For example, around the world, those perceived to be part 
of the LGBT community are facing absolutely horrific violence, 
especially today in territories controlled by the Islamic 
State. ISIS has proudly advertised its crimes against allegedly 
LGBT individuals through gruesome social media, videos, and 
photos.
    Groups such as OutRight Action International have compiled 
dozens of incidents in which people, usually men, have been 
blindfolded, tortured, thrown off tall buildings, and brutally 
murdered by crowds incited by anti-LGBT slurs. I have a list 
here that details some of these particular instances of 
violence against those perceived to be LGBT, and they are 
horrific.
    Last summer, BBC magazine ran a heartbreaking story 
entitled, ``Why My Own Father Would Have Let IS Kill Me,'' 
which detailed a young man who had to flee Iraq undercover 
after his own father agreed to turn him over to ISIS for being 
gay.
    I raise these issues not to suggest that those within the 
Islamic State territory or elsewhere who are being persecuted 
for being LGBT are more deserving of our attention than those 
suffering any other type of persecution, but I do want to 
ensure that LGBT people and other vulnerable groups who are 
being persecuted around the world are not forgotten and that we 
raise our voices in condemnation of all abuses of basic human 
rights and refrain from creating a hierarchy of human rights 
and I look forward to our consideration of legislation intended 
to do just that.
    I hope we can learn from the important example of U.S. 
efforts to combat religious persecution and use lessons learned 
and best practices to inform the work we do as a country to 
combat the persecution of all vulnerable groups around the 
world, including women, children, and LGBT individuals.
    I thank you, and I yield back.
    Chairman Royce. Thank you, Mr. Cicilline.
    We go now to Mr. Chabot of Ohio.
    Mr. Chabot. Thank you very much, Mr. Chairman.
    As one of the founding Members of the Congressional Taiwan 
Caucus, I have been actively involved in all Taiwan-U.S. issues 
for many years now and chaired the Asia and the Pacific 
Subcommittee as well, and I have been to Taiwan many times. 
That is why I am honored to have introduced House Concurrent 
Resolution 88, which reaffirms the Taiwan Relations Act and the 
Six Assurances as cornerstones of U.S.-Taiwan relations.
    Our relationship has been an enduring one. Taiwan is a 
close ally of ours, one that truly believes in and practices 
freedom and democracy. And the people of Taiwan proved that yet 
again this past January with the election of President Tsai, 
and I want to wish her and all the people of Taiwan the best of 
luck in her new role as President of Taiwan. I want to restate 
our support, just as this committee has for many, many years, 
and Congress has as well, our support of Taiwan.
    As most of my colleagues are aware, Taiwan faces an 
unrelenting threat from China, which has nearly 1,600 ballistic 
missiles aimed at her. And although Taiwan enjoys--let's face 
it--de facto independence, China's ultimate goal is to take the 
island, if by force or over time. China has made no bones about 
this. They have been pretty open about it for a long time. 
Unfortunately, the Taiwan Strait remains one of the potentially 
most dangerous flashpoints in the world.
    April 10, 2016, marked the 37th anniversary of the 
enactment of the Taiwan Relations Act, codifying into law an 
institutional framework and a legal basis for continued 
cooperation between the U.S. and Taiwan that would serve to 
maintain peace and stability in the western Pacific. However, 
when President Reagan agreed to sign the so-called U.S.-China 
Third Communique in 1982, he was aware of the communique's 
possible effect on Taiwan and recognized that Taiwan needed and 
deserved reassurance that the United States would be there 
whenever Taiwan needed us.
    So to reinforce American support for Taiwan, the United 
States issued the Six Assurances, which are guidelines to 
conduct relations between the U.S. and Taiwan, and they are as 
valid today as they were in 1982. They rightfully function, 
along with the Taiwan Relations Act, as cornerstones of the 
U.S.-Taiwan relations.
    And this is a relationship that has been a very strong one 
over the years. It is one of the reasons that I think it is 
very important that this administration reconsider the military 
cutbacks which have been proposed, and the fact that when 
Ronald Reagan was President his goal was to build up a 600-ship 
Navy, and we are down 250-some ships at this time.
    And a lot of those ships need to be in the Pacific and 
particularly in and around China, which clearly has plans. It 
is building up its navy. It is building islands and 
militarizing them. It is bullying its neighbors from the 
Philippines to Vietnam to Taiwan, you name it.
    And so it is very important for the U.S. to have the 
strength and for Taiwan also to continue to build up its 
military. The one thing that would make an armed conflict more 
likely is if Taiwan appears to be weak or the United States is 
weak. That is when there is a real danger of military action 
occurring. As long as Taiwan and the United States are strong, 
I don't think China would ever take any overt hostile military 
action.
    But I am afraid that the message that is being sent out 
worldwide is that the U.S. is pulling back, and that is a 
message that must change. We ought to have just the opposite. 
The United States needs to be actively engaged around the 
world, particularly in the Pacific.
    So I urge my colleagues to support this legislation and 
thank them for their support and yield back the balance of my 
time.
    Chairman Royce. Mr. Trott.
    Mr. Trott. I would like to thank Chairman Royce for 
scheduling H.R. 3694 for consideration, and also my colleague, 
Representative Deutch, for his partnership and leadership on 
the Stop Organ Trafficking Act. I also want to thank Mr. Smith 
for his commitment and years of work on this important issue 
and Representative Keating for his helpful amendment.
    The illegal trafficking of human organs has long been a 
terrible and heinous crime, but, unfortunately, the United 
States policies and laws have not kept pace. China has 
inexplicably been targeting Falun Gong for years. And more 
recently, ISIS has reportedly been resorting to this brutal 
practice to finance their nefarious activities and strike fear 
in the hearts of innocent people.
    Late last year, ISIS released a religious edict stating 
that taking organs from a living captive to save a Muslim's 
life was permissible, making religious minorities in Iraq, like 
the Chaldeans and the Assyrians, even more vulnerable targets.
    Mr. Chairman, it is time the United States shine a bright 
light on this problem and take a leading role in combating this 
heinous crime, standing with the world's most vulnerable. I 
urge my colleagues to vote in support of this timely and 
necessary legislation.
    Thank you, and I yield back my time.
    Chairman Royce. Any additional members seeking recognition?
    Hearing no further requests for recognition, the question 
occurs on the items considered en bloc.
    All those in favor, say aye.
    All those opposed, no.
    In the opinion of the Chair, the ayes have it and the 
measures considered en bloc are agreed to. And without 
objection, the measures considered en bloc are ordered 
favorably reported, as amended, and staff is directed to make 
any technical and conforming changes. Also without objection, 
the Chair is authorized to seek House consideration of those 
measures under suspension of the rules.
    And that concludes our business for today.
    I again want to thank Ranking Member Engel. I want to thank 
all of our committee members for their contributions and 
assistance with today's markup.
    This committee stands adjourned, and these measures are 
passed.
    [Whereupon, at 10:55 a.m., the committee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record
         
         [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
         
         
         
         
         


                                 [all]


</pre></body></html>
